                     
                     
                     
                     
                     
                     
                     
                     
                     




2008 Audit of Sensitive Payments
(Memorandum Report)
                     
                      
                     
                     
                     
                     
                     
                     
                     
                     
                     

                 
                          March 27, 2009
                          Report No. 448
 
 

                                                    Results of Audit
                                                                                                    
Results. The Office of Inspector General (OIG) conducted a limited scope audit
of sensitive payments in support of the Government Accountability Office’s
(GAO) audit of the Commission's Fiscal Year (FY) 2008 Financial Statements.
Specifically, we assessed the effectiveness of controls over executive functions,
including compensation, travel, official entertainment funds, unvouchered
expenditures, consulting services, speaking honoraria and gifts, and executive
perquisites. Senior government executives at the U.S. Securities and Exchange
Commission (SEC or Commission) include the Chairman and four
Commissioners who are Presidential appointees, Administrative Law Judges and
senior officers who are Senior Executive Service (SES) equivalents.
Commission senior officers include the agency’s senior level supervisors, such
as Division Directors, Deputy Directors, Associate Directors, Regional Directors,
Associate Regional Directors, and Office Directors. The Chairman and
Commissioners are compensated pursuant to the Executive Schedule pay plan
administered by the Office of Personnel Management (OPM), and the
Administrative Law Judges are compensated under the administrative law pay
plan also administered by OPM. Senior officers are covered by the
Commission’s senior officer play plan. 1

Our audit of sensitive payments did not disclose any evidence of fraud and we
concluded that overall, controls over sensitive payments are reasonable.
However, we identified some specific areas that need improvement. First, while
we found that compensation-related expenses for senior executives, including
merit pay increases and bonuses, were properly classified and reported, the
Commission did not always have adequate justification to support approved
compensation that was awarded to senior officers. Second, some senior officers
have continued to allow lower-level employees to certify their time and
attendance reports, despite this practice having been identified as a weakness in




                                                       
1
  The Investor and Capital Markets Fee Relief Act, Public Law 107-123, January 16, 2002,
granted the SEC the authority to pay its employees’ salaries and benefits at levels commensurate
with those paid by the Federal banking agencies (pay parity). The pay parity legislation
exempted the SEC from the definition of agency in the statutory provisions governing the SES.
See 5 U.S.C. § 3132. After the pay parity legislation was enacted, the SEC’s SES members were
converted to senior officers.



2008 Audit of Sensitive Payment                                                 March 27, 2009
Memorandum Report No. 448
                                                          Page 2
 

prior GAO sensitive payment reviews. 2 Third, reimbursements for two senior
officers foreign travel were not properly calculated, due to currency conversion
errors that resulted in the underpayment of the travel expenses. Finally, the audit
disclosed that record keeping could be improved with respect to the return of
prohibited gifts and contract files.

Based on our audit findings, we are recommending that:

      (1) Detailed justifications be required for all senior officer merit pay increases
          of $20,000 or more, or bonuses of $20,000 or more;
      (2) Senior officers be notified in writing that their time and attendance must be
          certified by senior personnel of equal or higher grade;
      (3) OFM revise its policy and procedures to add guidance for calculating
          foreign travel reimbursements;
      (4) OFM reimburse travelers amounts they were underpaid due to currency
          conversion and other errors;
      (5) The Ethics Office maintain a record of returned gifts; and
      (6) Contracting files contain complete documentation and indicate which
          documents are not required to be included in the files.




                                                       
2
  GAO Sensitive Payment Memorandum entitled: FY 2006 SEC Financial Statement Audit
Summary of Work Performed - Sensitive Payments, October 11, 2006; GAO Sensitive Payment
Memorandum entitled: FY 2007 SEC Financial Statement Audit Summary of Work Performed –
Sensitive Payments, September 26, 2007. GAO identified this practice as a problem that
warranted attention in its management letters to the agency in 2007 and 2008. See GAO-07-
0482 SEC Management Letter, April 3, 2007, p. 2 & p. 8; GAO-08-461R SEC Management
Letter, April 1, 2008, p. 2 & p. 10.



2008 Audit of Sensitive Payment                                             March 27, 2009
Memorandum Report No. 448
                                                          Page 3
 

                                                          Background
                                                                                              
Background. Senior government executives have a responsibility to lead and
be a model for other personnel in the Federal government. These individuals
“are vested with the public trust and hold positions with a high degree of
decision-making authority” and, as such, “are subject to the scrutiny and criticism
of the public and the media.” 3 “Senior government executives include officers
and directors of government corporations and senior executive service (SES) –
level officials in executive branch departments and agencies.” 4 At the U.S.
Securities and Exchange Commission (SEC or Commission), senior government
executives include the Chairman, the Commissioners, Administrative Law
Judges and senior officers.

Sensitive payments consist of a wide range of executive functions, “including
executive compensation, travel, official entertainment funds, unvouchered
expenditures, consulting services, speaking honoraria and gifts, and executive
perquisites.” 5 Sensitive payments issues are addressed in various Federal laws,
regulations, and policies and procedures manuals, including the Office of
Personnel Management (OPM) compensation and personnel documents, 6
government travel regulations, 7 and the Comptroller General Opinions. 8

Although the dollar amounts typically involved in sensitive payments are usually
not large enough to materially affect the fair presentation of financial statements,
sensitive payments are nonetheless a concern. 9 Senior executives, because of
the high level of authority they exercise, may have the opportunity to bypass the
organization’s established internal controls over sensitive payment areas. 10
Because senior government executives are subject to a high degree of scrutiny,
public disclosure of either actual or perceived improprieties involving sensitive


                                                       
3
   GAO Guide for Evaluating and Testing Controls Over Sensitive Payments (GAO Guide),
GAO/AFMD-8.1.2, Revised May 1993, at 6.
4
   Id.
5
   Id.
6
   See, e.g., OPM Compensation Policy Memorandum (CPM) 2006-19, December 21, 2006; CPM
2008-01, January 4, 2008, and 2007 & 2008 pay tables.
7
   See Federal Travel Regulation, 41 C.F.R Chapters 300 through 304.
8
   See, e.g., GAO Comptroller General Opinion B-289903, Gifts of Goods and Services to the
Government, March 4, 2002.
9
   GAO Guide at 6.
10
    Id.



2008 Audit of Sensitive Payment                                            March 27, 2009
Memorandum Report No. 448
                                                             Page 4
 

payments could result in significant criticism of the entity. 11 Thus, it is essential
that measures are taken to ensure that the Commission’s senior executives
adhere to established policies and procedures over sensitive payments to
prevent inappropriate acts and conduct that might damage the agency’s
reputation.



               Objectives, Scope, and Methodology
                                                                                          
Objectives. We conducted a limited scope audit of sensitive payments in
support of the Government Accountability Office’s (GAO) audit of the
Commission's Fiscal Year (FY) 2008 Financial Statements. The objective of the
audit was to assess the effectiveness of management controls over sensitive
payments to Commission senior executives, such as bonuses, official
entertainment funds, speaking honoraria and gifts, etc., in detecting fraud, waste
or mismanagement.

Scope. The Office of Inspector General (OIG) conducted a limited scope audit in
support of the GAO’s audit of the Commission's FY 2008 Financial Statements.
Specifically, this audit examined sensitive payment transactions from October 1,
2007 to September 30, 2008. Our work on sensitive payments was conducted
from May to September 2008. However, we subsequently expanded fieldwork
covering our review of executive compensation. Our initial testing disclosed that
two senior officers received substantial merit pay and/or bonus awards during FY
2008. As a result, we expanded our review of senior executive compensation to
include all senior officers who received merit pay increases of $20,000 or more,
as well as bonuses of $20,000 or more, during FY 2008.

Methodology. We performed limited testing on various sensitive payments
areas to detect fraud, waste or mismanagement. To test executive
compensation we initially selected a random sample of ten biweekly
compensation payments to Commission senior executives for the period between
October 1, 2007 and June 30, 2008, to determine whether the payments were
properly supported, authorized and within legal limits. We subsequently
expanded our testing of executive compensation to include a review of all senior
officer merit pay increases of $20,000 or more that were combined with bonuses
of $20,000 or more.


                                                       
11
     Id.



2008 Audit of Sensitive Payment                                           March 27, 2009
Memorandum Report No. 448
                                                          Page 5
 

Our testing of senior executive travel reimbursements included reviewing a
judgmental sample of six trips that were taken between October 1, 2007 and
June 30, 2008, to determine, among other things, whether the trips were
authorized and reimbursements were properly calculated.

We reviewed other sensitive payment areas, such as entertainment funds,
speaking honoraria and gifts, and executive perquisites, by obtaining and
analyzing relevant documentation and regulations, including the Standards of
Ethical Conduct for Employees of the Executive Branch. 12 We tested the
effectiveness of the policies and procedures for detecting conflicts of interest on
the part of Commission senior officials by examining a judgmental sample of
financial disclosure forms that were submitted by eight individuals who became
senior officers during FY 2008.

In the contracting and consulting area, we judgmentally selected six contracts
that were in effect as of May 31, 2008, to determine whether the contracting and
consulting services were authorized, payments were properly approved, and the
contract files contained the proper documentation.

Generally Accepted Government Auditing Standards. The OIG performed a
limited scope audit in support of the GAO’s audit of the SEC’s FY 2008 Financial
Statements, to assess the effectiveness of the Commission’s management
controls over sensitive payments. We conducted this performance audit in
accordance with generally accepted government auditing standards. These
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.




                                                       
12
     5 C.F.R. Part 2635.



2008 Audit of Sensitive Payment                                        March 27, 2009
Memorandum Report No. 448
                                                          Page 6
 

                       Findings and Recommendations 
                                                                                                      

Senior Executive Compensation. Executive compensation consists of salary,
merit pay increases, awards, bonuses, etc., that senior agency officials receive
during a given year. Within the Commission, senior officers who receive a
satisfactory performance rating are eligible for:

             1. Senior officer pay adjustments, i.e., merit increases;
             2. Senior officer performance awards, i.e., bonuses, and
             3. Incentive awards, i.e., Commendable Act or Service Awards. 13

Commission policies and procedures do not prescribe specific dollar amounts for
merit pay increases or bonuses that senior officers may receive, except that
salaries and bonuses must not exceed budgeted amounts, or the Commission’s
salary and total pay caps. 14

To determine whether there was adequate support for executive compensation
and to ensure it did not exceed allowable amounts, we obtained and reviewed
the universe of all compensation that Commission senior executives received
from October 1, 2007 to June 30, 2008. We selected a judgmental sample of 10
senior officer’s compensation payments for our review. We then assessed
whether:

             1. Merit pay and bonus awards were authorized and properly justified
                and approved;
             2. Salaries were within the SEC salary limits of $215,700 for calendar
                year 2007 and $221,100 for calendar year 2008; and
             3. Total pay was within the applicable limits of $238,900 for calendar year
                2007 and $244,900 for calendar year 2008.




                                                       
13
   Securities and Exchange Commission Senior Officer Program Performance Management
System, Last Updated July 16, 2002. According to OHR, on occasion senior officers receive
special act, i.e., incentive awards, which may be given out at any time during the year.
14
   The SEC has chosen to use the Vice President’s salary as the salary cap for Commission
senior officers and staff (SK) positions. This amount was $215,700 for calendar year 2007 and
$221,100 for calendar year 2008. See OPM CPM 2008-01 and 2006-19. The SEC also has a
separate total pay cap for senior officers that allow them to receive bonuses exceeding the salary
cap. The senior officer’s total pay cap was $238,900 for 2007 and $244,900 for 2008 (meaning
that a senior officer’s total salary and bonuses could not exceed these limits).



2008 Audit of Sensitive Payment                                                   March 27, 2009
Memorandum Report No. 448
                                                          Page 7
 

The payments identified in Table 1 below consist of a combination of gross
biweekly salary, bonuses, and relocation reimbursements for 10 Commission
senior officers that are identified as sample 1-10.

                                 Table 1: Senior Officer Gross Biweekly
                                 Salary & Executive Compensation Benefits
                                  Sample                      Payment Date    Payment
                                  No.                                         Amount
                                                                                        15
                                         1^               October 23, 2007    $59,758
                                          2*              December 4, 2007    $8,268
                                          3*              February 12, 2008   $8,145
                                          4*              April 22, 2008      $8,308
                                         5∞               May 20, 2008        $28,475
                                          6*              May 6, 2008         $8,468
                                         7∞               March 25, 2008      $18,475
                                          8*              December 18, 2007   $7,910
                                          9*              October 9, 2007     $7,666
                                         10*              July 15, 2008       $8,475
                                Source: Office of Human Resources
                                     ^ Salary and Relocation Reimbursement
                                     ∞ Salary and Bonus
                                     * Salary Only

To test the accuracy of the senior officer’s executive compensation we requested
documents from the Office of Financial Management (OFM) and the Office of
Human Resources (OHR) to support the annual merit pay increases, awards,
bonuses, relocation reimbursements, etc.

Finding 1: Justification is Needed for All
Senior Officer Merit Pay Increases and
Bonuses.
             Compensation-related expenses, such as merit pay increases and
             bonuses, were properly classified and reported, but in some
             instances were not properly supported with adequate justification.

                                                       
15
   This payment of $59,758 to a senior officer reflected salary, as well as relocation
reimbursements incurred in July and August 2007 in connection with the senior officer’s taking a
position with the Commission in another state. OFM provided documentation showing that the
relocation reimbursements were paid by check to the senior officer in a series of payments
between August 17, 2007 and October 4, 2007. Hence, the $59,758 amount identified in our
sample in the payroll system did not actually reflect a lump-sum payment and the reimbursement
payments appear to have been made in a timely manner.



2008 Audit of Sensitive Payment                                                              March 27, 2009
Memorandum Report No. 448
                                                                 Page 8
 

Senior Officers Received Sizeable Merit Pay Increases and Bonuses. Our
review of executive compensation and supporting documentation found that
salaries, pay increases and bonuses were properly classified and reported.
However, the Commission did not always have adequate documentary support to
justify all approved compensation that was awarded to senior officers.
 
Our initial testing of executive compensation revealed that two senior officers in
our sample (Nos. 5 and 7 in Table 1 above) received substantial salary increases
(based on merit), and/or lump sum bonuses (one for $20,000 and one for
$10,000). We thereafter expanded our executive compensation scope and
requested information on all senior officer merit pay increases and bonuses that
were approved and awarded during FY 2008. 16

At our request, OHR provided us with an Award Spreadsheet that identified
proposed and approved merit pay increases and bonuses for Commission senior
officers for the performance period ending September 30, 2007. The
spreadsheet listed among other things, all senior officers, their current salaries,
their proposed merit pay increases and bonus amounts, and their approved merit
pay increases and bonus amounts. OHR officials informed us that each year the
Chairman sends a memorandum to all senior officers instructing them to prepare
a written justification to support proposed merit pay increases and bonuses. 17

Based on our analysis of the Award Spreadsheet, we requested justification and
documentation to support senior officer merit pay increases and bonuses of
$20,000 or more that was awarded during FY 2008. We found that a total of
seven senior officers received merit pay increases of $20,000 or more and
bonuses of $20,000 or more. 18 As shown in Table 2 below, these merit pay
increases and bonuses ranged from combined totals of $44,657 to $85,082.
Specifically, one senior officer received a $24,657 merit increase; another
received a $55,720 merit increase, and five received $65,082 in merit increases.
In addition, all seven received $20,000 lump-sum bonuses. OHR staff informed
us that detailed justifications to support these merit pay increases and bonuses
were not required because the seven senior officers identified in our sample all
reported directly to the Chairman.



                                                       
16
   Merit pay increases raise the senior officer’s salary on a permanent basis, while a bonus
award is a single, lump-sum payment. According to OHR, senior officer’s merit pay and
performance awards for the performance period October 1, 2006 through September 30, 2007,
were distributed during Fiscal Year 2008.
17
    We were informed by OHR, however, that written justifications are not required for merit pay
increases and bonus awards to senior officers who report directly to the Chairman.
18
   We also noted that four other senior officers received $20,000 bonuses.



2008 Audit of Sensitive Payment                                                   March 27, 2009
Memorandum Report No. 448
                                                          Page 9
 

                                     Table 2: Senior Officers Receiving Merit
                                     Increases of $20,000 or More and Bonuses
                                     of $20,000 or More for Performance Year
                                     Ending 9/30/07
                                      Senior                Merit    Bonus     Total
                                      Officer               Pay      Amount
                                                          Increase
                                               1          $24,657    $20,000   $44,657
                                               2          $55,720    $20,000   $75,720
                                               3          $65,082    $20,000   $85,082
                                               4          $65,082    $20,000   $85,082
                                               5          $65,082    $20,000   $85,082
                                               6          $65,082    $20,000   $85,082
                                               7          $65,082    $20,000   $85,082
                                   Source: Office of Human Resources

We did not find any evidence of fraud or payments that went over the established
limits or budgeted amounts. We determined that the merit pay increases and
bonuses did not exceed the SEC’s established $215,700 salary cap for calendar
year 2007 and the $221,100 salary cap for calendar year 2008, as well as the
total pay limits of $238,900 for calendar year 2007 and $244,900 for calendar
year 2008 for senior officers. 19

However, we believe that because of the significant dollar amounts involved, the
Chairman’s office should provide justification to support awarding senior officers
merit pay increases of $20,000 or more, or bonuses of $20,000 or more.

Recommendation 1:
The Chairman’s office should provide a detailed justification for all senior officer
merit pay increases of $20,000 or more, or bonuses of $20,000 or more.


Finding 2: Lower Level Employees Certify
Senior Officer’s Time and Attendance Reports
             Some senior officers allowed lower level employees to certify their
             time and attendance reports, despite the fact that GAO previously
             identified this practice as an internal control weakness.

During previous GAO reviews of Commission sensitive payments, the practice of
lower level employees certifying senior executives’ time and attendance reports

                                                       
19
     SEC 2007 and 2008 Senior Officer Pay Charts and Total Pay Limits.



2008 Audit of Sensitive Payment                                                          March 27, 2009
Memorandum Report No. 448
                                                               Page 10
 

was identified as an internal control weakness. Our review of senior executive
time and attendance reports for FY 2008, in connection with our review of
executive compensation payments, revealed that in some cases senior officers
have continued to allow lower level employees to certify their reports. Thus, we
found that this practice is still occurring. Overall, these transactions were not
material and did not impact the financial statements. However, in accordance
with proper internal controls over time and attendance matters, senior officials
should ensure that their time and attendance is approved by senior personnel of
equal or higher grade.

Recommendation 2:
The Office of Human Resources should send a written notification to Commission
senior executives, reminding them that their time and attendance should be
certified by a senior official of equal or higher grade.


Finding 3: Reimbursement of Foreign Travel
Expenses Should be Calculated Properly.
        Two senior officers who traveled outside the country on
        Commission business were underpaid reimbursable expenses due
        to currency conversion errors.

Senior Executive Travel.  We reviewed the population of senior executive’s
travel expenses for the period from October 1, 2007 to June 30, 2008. We
judgmentally selected and reviewed six transactions to determine whether:

    •   Travel orders were authorized and approved;
    •   Travel vouchers were authorized and approved;
    •   Travel expenses were properly classified, reported and reimbursed;
    •   Travel advances were authorized and approved; and
    •   Outstanding advances were promptly collected or applied to future trips.

Our review identified two occasions in our sample involving foreign travel where it
appears that the SEC underpaid senior officers for reimbursements by immaterial
amounts. In the first scenario, a senior officer traveled on official government
business from the United States to London and then to Rome. We found that
OFM processed the reimbursed travel expenses based on an incorrect currency
conversion rate used by the traveler, which resulted in the traveler being
underpaid.

In another case, a senior officer was underpaid as a result of both a currency
conversion rate error and an external host paying portions of the travel. The


2008 Audit of Sensitive Payment                                      March 27, 2009
Memorandum Report No. 448
                                      Page 11
 

senior officer traveled from the United States to Paris to London, and then to
Manhattan, New York. An underpayment occurred because as in the situation
described above, the traveler used an incorrect currency conversion rate to
calculate the reimbursement. The underpayment also appeared to result from
confusion about which travel expenses were being paid by the host. While we
found documentation indicating that the London portions of the senior officer’s
trip would be paid by the host, it appeared that the host had not paid the entire
amount of the expenses the senior officer incurred in London.

Foreign Travel Guidance. In both cases described above, the travelers
calculated their reimbursements using a daily conversion rate for each day of
their stay at a particular location. The OFM travel webpage contains a link to the
Department of State’s website on foreign per diem rates. The site contains no
guidance on the use of daily rates. State Department officials informed us that
their policy is to use daily rates, but said they could not speak to the SEC’s
policy.

OFM officials informed the OIG that the office does not have any written policy
describing how foreign travel expenses should be calculated. However, OFM’s
practice is to calculate the traveler’s hotel expenses and value added tax (VAT)
using either the currency conversion rate on the credit card statement, or the
rate as of the traveler’s hotel checkout day. OFM officials indicated that
incidentals, such as taxi, parking, laundry, etc., are calculated by using the daily
rate on the day the expense is incurred. Although OFM offers a one-day training
class, as well as an on-line training course, that cover areas such as foreign per
diem rates, calculating foreign travel expenses, etc., the training is not mandatory
and no further guidance is available to travelers on how to calculate reimbursable
foreign travel expenses.

Our audit determined that the two senior officers were underpaid for foreign
travel expenses by nominal amounts and OFM should reimburse them for the
underpaid amounts. We further determined that OFM should revise its policies
and procedures to provide guidance to SEC employees on how to calculate
reimbursable foreign travel expenses.

Recommendation 3:
The Office of Financial Management should revise its policies and procedures to
inform travelers of the proper currency conversion rates that should be used
when requesting reimbursement for foreign travel expenses.

Recommendation 4:
The Office of Financial Management should reimburse travelers the amounts that
they were underpaid due to currency conversion and other errors.



2008 Audit of Sensitive Payment                                       March 27, 2009
Memorandum Report No. 448
                                      Page 12
 

Official Entertainment, Reception and Representation Funds. Official
entertainment funds, or reception and representation expenses, are authorized
for some Federal agencies. These costs typically are associated with
entertaining visiting dignitaries and State functions, and the amount of these
funds is generally limited by law. 20 The SEC is authorized to spend reception
and representation expenses of up to $3,500 annually. 21 We obtained a list from
OFM for official entertainment fund expenses for FY 2008, as of June 30, 2008.
OFM also provided us with the Un-Liquidated Obligation by Organization Report,
which identified the $3,500 representation funds limit and the budget object class
and organization code for purchases.

OFM provided us with documentation for the two reception and representation
expenses that were incurred during FY 2008. We reviewed the support provided
to ensure the expenditures were properly approved and classified. The first
expense was associated with token gifts (cufflinks and tie pins) that were
purchased from the SEC Recreation and Welfare Association 22 store for $280.
The Chairman presented these gifts to foreign leaders during an official overseas
trip. We confirmed that the $280 was the only reception and representation
expenditure as of June 30, 2008, the end of the third quarter of FY 2008.

The second expense, which occurred in the fourth quarter of FY 2008, was
related to a luncheon that cost approximately $430, for an Australian government
delegation to celebrate the signing of a mutual recognition agreement between
the SEC, the Australian government, and the Australian Securities and
Investments Commission. 23 We determined that the reception and
representation expenditures totaling $710 during FY 2008 did not exceed the
authorized $3,500 limit and were properly approved and classified.

Speaking Honoraria and Gifts. We met with the SEC’s Designated Agency
Ethics Official (DAEO) to obtain an understanding of the Commission’s policies
for speaking honoraria and gifts. The DAEO indicated that the Commission has
a strict policy regarding executives accepting and receiving gifts. We obtained a
copy of the Ethics bulletin and Ethics NewsGrams pertaining to gifts that are
located on the Ethics website on the Insider, the Commission’s Intranet. The
Ethics guidance explicitly prohibits the solicitation, or acceptance of gifts from



                                                       
20
   GAO Guide at 17.
21
   Consolidated Appropriations Act, 2008, Public Law 110-161, December 26, 2007.
22
   The SEC Recreation and Welfare Association is a non-appropriated funding instrumentality
designed to promote employee welfare and morale.
23
   See SEC Press Release 2008-182, SEC, Australian Authorities Sign Mutual Recognition
Agreement, August 25, 2008, http://www.sec.gov/news/press/2008/2008-182.htm.



2008 Audit of Sensitive Payment                                                March 27, 2009
Memorandum Report No. 448
                                                          Page 13
 

prohibited sources, or that is given because of one’s official position, unless an
exclusion or exception applies. 24

We asked the DAEO to explain how the SEC handles situations when SEC
personnel receive inappropriate gifts. The DAEO stated that gifts deemed
inappropriate are sent back to the source and he provided us with copies of
sample letters that are used to accompany returned gifts. However, when we
asked the DAEO for an account of the total number of gifts that were returned in
FY 2008, he indicated that the Ethics Office did not track the number of returned
gifts. We determined that the SEC’s policy and practices concerning the receipt
and acceptance of gifts are in accordance with the requirements of the Standards
of Ethical Conduct for Employees of the Executive Branch, 25 but believe that the
Ethics Office should maintain a record of the returned gifts for which it has
knowledge.
Recommendation 5:
The Ethics Office should enhance its process for the return of prohibited gifts by
keeping an account of the prohibited gifts received by SEC employees that are
returned to the source of the gift of which the Ethics Office has knowledge.  

Unvouchered Expenditures. Unvouchered expenditures are funds within
government entities that may be used at the discretion of the entity’s chief
executive or head to further its mission. These expenditures do not require the
same level of documentation as typical transactions, and the amount of these
funds is limited by law. 26 The SEC did not authorize or process any unvouchered
expenditures in FY 2008.

Senior Executive Perquisites. Executive perquisites are benefits that are
available to senior executives, such as reserved parking, limousine service,
dining facilities, office space and furnishings, and other government owned or
furnished facilities. 27

We met with the DAEO to obtain an understanding of the SEC Ethics Office’s
role regarding executive perquisites. The DAEO informed us that the Ethics
Office is not involved in determining or monitoring executive perquisites, although
the office does provide informal guidance upon request.



                                                       
24
     Ethics NewsGram: Don't Ask - You May Not Solicit Anything of Value, October 5, 2005.
25
     See 5 CFR § 2635.201-205.
26
     GAO Guide at 18.
27
     GAO Guide at 20.



2008 Audit of Sensitive Payment                                                  March 27, 2009
Memorandum Report No. 448
                                                          Page 14
 

There are three main categories of perquisites for senior executives at the
Commission: 1. parking, 2. drivers, and; 3. office furniture funds.

Parking and Drivers. As of December 16, 2008, the SEC had issued 23 parking
permits to the Chairman, Commissioners, Chief Administrative Law Judge,
Division Directors, Deputy Division Directors, and Office Directors at the Station
Place Headquarters facility. The Commission has 11 Regional Directors, all of
whom have reserved parking at the respective regional office. The SEC’s
Chairman is assigned a vehicle and personal driver. All other SEC senior
officials have access to a government vehicle and driver when needed for official
government business.

Office Furniture. The Chairman and four SEC Commissioners are each
authorized to spend up to $5,000 during their term to furnish their offices. All
furniture that is purchased is the SEC’s property and remains with the
Commission when the Chairman or Commissioner leaves the agency.

We did not identify any furniture purchases during FY 2008 prior to June 30,
2008. However, three new SEC Commissioners were sworn in during July and
August 2008, and they were each authorized $5,000 to furnish their offices. We
reviewed data showing that two of the three new Commissioners used the
allotted funds to purchase furniture prior to the end of the FY 2008. One
Commissioner used $576 to purchase bookcases, and another Commissioner
spent $4,720 to purchase new office furniture. The amounts spent were within
the allotted $5,000, and we did not identify any discrepancies.

Ethics Office and Conflicts of Interest. We met with the DAEO to obtain an
understanding of the Commission’s policies on informing senior executives of
and identifying potential ethics violations and conflicts of interest. We requested
a list of the senior officers who were appointed during FY 2008 and requested
financial disclosure forms for eight, based on judgmental sampling. The DAEO
provided us with a certification that the senior officer’s financial disclosure forms
were submitted and reviewed in accordance with the Office of Government
Ethics regulations at 5 C.F.R. Part 2634, with the exception of one senior officer
who was granted a 45-day extension to file the form.

Review of Contracting and Consulting Services. The SEC’s contracting and
consulting staff in the Office of Acquisitions within the Office of Administrative
Services address the potential for senior executive conflicts of interest problems,
including:

    •   Direct or sole source contract selection by senior executives;
    •   Ownership interest in companies with which the agency does business, as
        evidenced by the financial disclosure forms and other records;



2008 Audit of Sensitive Payment                                         March 27, 2009
Memorandum Report No. 448
                                       Page 15
 

      •      Senior executive approval of contractor invoices for payment; and
      •      Repeated use of the same contractors.

We judgmentally selected six contracts that were in effect as of May 31, 2008, to
determine whether the contract and the consulting services were authorized and
payments were properly approved. Our testing included identifying evidence for
the receipt of goods and services; assessing whether the amounts were correct;
and determining whether payments were approved by appropriate officials, the
purchases were made for official government purposes, and expenses were
properly classified.

We identified two contracts from our sample where the amounts paid under the
contract appeared to have exceeded the total dollar value of the contract. On
one contract, the total dollar value of the contract was $4.5 million, but our testing
revealed receipts and invoices totaling over $4.5 million as of June 2008. We
brought this discrepancy to the attention of the contracting officer, who explained
that two contract modifications were timely executed bringing the total contract
value to over $10 million. The contracting officer provided OIG with the proper
documentation to support the current contract amount.

On another contract, the OIG was provided with information showing a contract
award of $347,125 and receipts and invoices totaling $392,125, $45,000 more
than the contract amount. The contracting officer provided us with a contract
modification showing an increase to the contract for $45,000.

During its review of the six selected contract files, the OIG did not find any actual
conflicts of interest. However the OIG discovered that not all required
documentation was in the contract files. Below is a list of several documents that
should be included in a contract file, if applicable to the particular contract: 28

      •      Central Contractor Registration (CCR) database search printout -- The
             CCR is the primary registrant database for the Federal government. The
             “CCR collects, validates, stores and disseminates data in support of
             agency acquisition missions. “ 29

      •      Statement of Work (SOW) – Identifies the tasks to be conducted by the
             contractor and/or the outcomes to be achieved.


                                                       
28
   The Federal Acquisition Regulation (FAR) contains extensive, specific requirements for
contract file documentation. See 48 C.F.R. 4.802.
29
   http://www.ccr.gov.



2008 Audit of Sensitive Payment                                                  March 27, 2009
Memorandum Report No. 448
                                                          Page 16
   

        •      Price Negotiation Memorandum (PNM) or Price Reasonableness
               Determination (PRD) – The document signed by the contracting officer
               establishing that the contract was awarded, or order was made, at a fair
               and reasonable price.

        •      Justification and Approval (J&A) for Sole Source Award – The document
               the contracting officer signs to justify awarding a contract or order without
               providing for full and open competition.

  Our review found that a J&A was required for two of the six contracts we
  reviewed, but was missing in one of the files. Table 3 illustrates the overall
  results of the OIG’s contract file review.

  Table 3: Contract Documents Found in the Sample
 Contract Central                                           Statement Price Negotiation          Findings
 No.      Contractor                                         of Work  Memorandum/Price
          Registration                                                Reasonableness
          Documentation                                               Determination/Sole
                                                                      Source
                                                                      Justification
        1                             √                         √             √            J&A not required.
                                                                                           The file had an
                                                                                           evaluation
                                                                                           memorandum in
                                                                                           place of the PNM or
                                                                                           PRD.
        2                             √                         √             √            J&A not required.

        3                             √                         √             X                                30
                                                                                           J&A not required.

        4                             √                         √             √            N/A

        5                             √                         √             √            N/A


        6                             √                         √             X            The file did not
                                                                                           include a J&A or price
                                                                                           evaluation.
Source: Office of Administrative Services, Office of Acquisitions contract files
 √ - Documents available
 X – Documents missing




                                                         
  30
   Subsequent to audit fieldwork, the agency located a PNM for this contract. However, the PNM
  was previously not in the contract file.



  2008 Audit of Sensitive Payment                                                                March 27, 2009
  Memorandum Report No. 448
                                                                    Page 17
 

While the OIG recognizes that some documents may not be required for a
particular contract, we believe that the contract files should include all required
pertinent documents, and specify which documents are not required and,
therefore, are not included in the file.
   
Recommendation 6:

The Office of Acquisitions should ensure that each contracting file contains the
required documents and specifies, possibly on the contract checklist, which
documents are not required to be included in the file.




2008 Audit of Sensitive Payment                                         March 27, 2009
Memorandum Report No. 448
                                       Page 18
 

                                   Criteria

Federal Acquisition Regulation (FAR) Subpart 4.8, Government Contract
Files, 48 C.F.R. 4.800 et seq. Contains requirements for establishing,
maintaining and disposing of government contract files.

Federal Travel Regulation, 41 C.F.R. § 301-1.1, etc. The FTR implements
statutory requirements and Executive Branch policies for travel by Federal
civilian employees and others authorized to travel at Government expense.

GAO Comptroller General Opinion B-289903 – March 4, 2002. Comptroller
General of the United States decision regarding whether Federal agencies may
accept gifts of goods or services from private sources.

GAO Guide for Evaluating and Testing Controls Over Sensitive Payments,
GAO/AFMD-8.1.2, Revised May 1993. Provides a framework for evaluating and
testing the effectiveness of internal controls that have been established in various
sensitive payment areas.

Investor and Capital Markets Fee Relief Act, Public Law 107-123, January 6,
2002. This “pay parity” legislation granted the SEC the authority to pay its
employees’ salaries and benefits at levels commensurate with those paid by the
Federal banking agencies, and exempted the SEC from the definition of agency
in the statutory provision governing the Senior Executive Service, see 5 U.S.C. §
3132.

OPM Compensation Policy Memoranda (CPM) 2006-19 (December 21, 2006)
and 2008-01 (January 4, 2008). Provides guidance on the Executive Orders
implementing annual pay adjustments and information on the 2007 and 2008 pay
adjustments for the General Schedule pay system and certain other pay systems
and schedules. Contain links to the Office of Personnel Management’s 2007 and
2008 salary tables.

SEC Ethics Office Bulletins and NewsGrams. Provides guidance to the
Commission’s employees on issues such as conflicts of interest, gifts, and
financial disclosure. The Ethics staff also drafts, comments on, and implements
regulations concerning ethical conduct issues.

SEC Senior Officer Pay Charts for 2007 and 2008. Consist of senior officer
base pay rates, locality percentages and salary caps for calendar years 2007 and
2008.




2008 Audit of Sensitive Payment                                       March 27, 2009
Memorandum Report No. 448
                                      Page 19
 

SEC Senior Officer Performance Management System, Last updated July
16, 2002. Constitutes the system for managing the performance of all SO
Executives of the senior officer program, including the appraisal and rating
process, performance awards and pay adjustments.

Standards of Ethical Conduct for Employees of the Executive Branch, 5
C.F.R. Part 2635. Sets forth the ethical standards of conduct and obligations of
employees of the Federal executive branch, including rules pertaining to gifts and
conflicts of interest.




2008 Audit of Sensitive Payment                                     March 27, 2009
Memorandum Report No. 448
                                     Page 20
 

              Summary of Recommendations

Recommendation 1:

The Chairman’s office should provide a detailed justification for all senior officers
receive merit pay increases of $20,000 or more, or bonuses of $20,000 or more.

Recommendation 2:

The Office of Human Resources should send a written notification to Commission
senior executives, reminding them that their time and attendance should be
certified by a senior official of equal or higher grade.

Recommendation 3:

The Office of Financial Management should revise its policies and procedures to
inform travelers of the proper currency conversion rates that should be used
when requesting reimbursement for foreign travel expenses.

Recommendation 4:

The Office of Financial Management should reimburse travelers the amounts that
they were underpaid due to currency conversion and other errors.

Recommendation 5:

The Ethics Office should enhance its process for the return of prohibited gifts by
keeping an account of the prohibited gifts received by SEC employees that are
returned to the source of the gift of which the Ethics Office has knowledge.

Recommendation 6:

The Office of Acquisitions should ensure that each contracting file contains the
required documents and specifies, possibly on the contract checklist, which
documents are not required to be included in the file.




2008 Audit of Sensitive Payment                                         March 27, 2009
Memorandum Report No. 448
                                      Page 21
 


                Acronyms and Abbreviations
                                                                                    
CCR                           Central Contractor Registration
DAEO                          Designated Agency Ethics Official
FY                            Fiscal Year
GAO                           Government Accountability Office
J&A                           Justification and Approval for Sole Source Award
OFM                           Office of Financial Management
OHR                           Office of Human Resources
OIG                           Office of Inspector General
OPM                           Office of Personnel Management
PNM                           Price Negotiation Memorandum
PRD                           Price Reasonableness Determination
SOW                           Statement of Work
SEC or Commission             U.S. Securities and Exchange Commission
SES                           Senior Executive Service




2008 Audit of Sensitive Payment                                       March 27, 2009
Memorandum Report No. 448
                                       Page 22
 

                    Management’s Response
                                                          




2008 Audit of Sensitive Payment             March 27, 2009
Memorandum Report No. 448
                                  Page 23
 




2008 Audit of Sensitive Payment             March 27, 2009
Memorandum Report No. 448
                                  Page 24
 




2008 Audit of Sensitive Payment             March 27, 2009
Memorandum Report No. 448
                                  Page 25
 




2008 Audit of Sensitive Payment             March 27, 2009
Memorandum Report No. 448
                                  Page 26
 

OIG’s Response to Management’s Comments
                                                                                       
We are pleased that management appreciates the work that the OIG conducted
as part of this audit and our efforts to ensure that the SEC maintains reasonable
controls over sensitive payments. We are also pleased that management has
concurred in full with four of our recommendations to improve the agency’s
management of sensitive payments and in part with another recommendation.

Nonetheless, we are disappointed in management’s response to our
recommendation that Commission senior executives be reminded that their time
and attendance must be certified by a senior official of equal or higher grade.
Both the Government Accountability Office (GAO) and the OIG have identified
the certification of senior officials’ time by lower-level employees as an internal
control deficiency and have recommended, beginning in April 2007 by the GAO,
that management address this concern. We are surprised that management
would take the position that the SEC’s adoption of the Quicktime electronic time
and attendance system in June 2008 successfully addressed the problem, when
the GAO recently conducted an analysis of the Quicktime system’s controls and
specifically found that it has not, in fact, been configured to prevent lower-level
employees from approving higher-level employees’ time and attendance reports.
We believe that management should reconsider its position and enact this
important internal control measure that both the GAO and OIG believe is
warranted.

In addition, we are disappointed with respect to two other matters raised in
management’s response. First, while management responds that it agrees with
the concerns expressed by the OIG in the report, it states that it is unwilling to
undertake control measures identified in the OIG report to address these
concerns because they would involve administrative and recordkeeping burdens.
Specifically, management states that it appreciates the concerns expressed by
the OIG about the lack of an accounting of the return of prohibited gifts by SEC
employees, but is not willing to keep an accounting of those prohibited gifts
because of the “administrative and recordkeeping burdens” such a requirement
would impose. We are surprised by this response since the recommendation is
limited to keeping an account of prohibited gifts received by SEC employees of
which the Ethics Office has knowledge, and we understand that the number of
these gifts is relatively small.

Second, while management’s response states that it “wholeheartedly agrees that
each contracting file should contain all required documents,” management does
not commit to undertake any measures to ensure that this is the case, e.g., by
conducting periodic inspections of a sample of contract files to ensure



2008 Audit of Sensitive Payment                                       March 27, 2009
Memorandum Report No. 448
                                      Page 27
 

completeness. In addition, management states that it is unwilling to ensure that
the contract files specify which documents are not required to be included in the
files, even though management notes that the contract files already contain a
checklist of items, indicating that implementing this requirement would impose
“significant administrative burdens” on contract specialists. However, this
important control measure could be accomplished by simply requiring contract
specialists to write “N/A” next to items that do not apply to the contract in
question on a checklist that, according to management, may be more than two
pages long. Given the importance of strong internal controls in the areas of
procurement and contracting as well as ethics, we hope that management
reconsiders its position on both of these recommendations. 

 




2008 Audit of Sensitive Payment                                      March 27, 2009
Memorandum Report No. 448
                                     Page 28
 

                  Audit Requests and Ideas
                                                                               
The Office of Inspector General welcomes your input. If you would like to
request an audit in the future or have an audit idea, please contact us at:


U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General, Audits (Audit Requests/Ideas)
100 F. Street N.E.
Washington D.C. 20549-2736

Tel. #: 202-551-6061
Fax #: 202-772-9265
Email: oig@sec.gov
 




      Hotline
      To report fraud, waste, abuse, and mismanagement at SEC,
      contact the Office of Inspector General at:

      Phone: 877.442.0854

      Web-Based Hotline Complaint Form:
      www.reportlineweb.com/sec_oig




 

 




 
